Audit Report




OIG-12-054
SAFETY AND SOUNDNESS: OCC’s Supervision of National
Bank’s Foreclosure Practices
May 31, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents

Audit Report

  Results in Brief ............................................................................................ 2

  Background ................................................................................................ 3

  Findings and Recommendations .................................................................... 6

      OCC Underestimated the Level of Risk in Foreclosure Documentation
      and Processing…………. .......................................................................... 6

      The Mortgage Banking Comptroller’s Handbook was Outdated ..................... 9

      Recommendations................................................................................... 10




Appendices

  Appendix     1:      Objectives, Scope, and Methodology ......................................              14
  Appendix     2:      Management Response .........................................................          16
  Appendix     3:      Major Contributors to This Report ...........................................          20
  Appendix     4:      Report Distribution ................................................................   21


Abbreviations

  ARM                  adjustable rate mortgage
  CFPB                 Consumer Financial Protection Bureau
  CNBE                 Chief National Bank Examiner
  FDIC                 Federal Deposit Insurance Corporation
  FRB                  Board of Governors of the Federal Reserve System
  GSE                  government sponsored enterprise
  MERS                 Mortgage Electronic Registration Systems, Inc.
  OCC                  Office of the Comptroller of the Currency
  OTS                  Office of Thrift Supervision




                       OCC’s Supervision of National Bank’s Foreclosure Practices                          Page i
                       (OIG-12-054)
         This page intentionally left blank.




OCC’s Supervision of National Banks’ Foreclosure Practices   Page ii
(OIG-12-054)
                                                                               Audit
OIG
The Department of the Treasury
                                                                               Report
Office of Inspector General




                  May 31, 2012

                  Thomas J. Curry
                  Comptroller of the Currency

                  This report presents the results of our audit of the Office of the
                  Comptroller of the Currency’s (OCC) supervision of foreclosure
                  practices at national banks with large mortgage servicing portfolios
                  during the period 2008 through 2010. Our audit objectives were to
                  determine (1) the sufficiency of existing procedures for supervising
                  loan documentation and foreclosure practices at national banks
                  which own or service mortgage loans and (2) the effectiveness of
                  the application of these procedures.

                  We included this audit in the Office of Inspector General Fiscal Year
                  2011 Annual Plan in response to reports of “robo-signing” and
                  document manipulation by financial institutions pursuing
                  foreclosure in connection with the wave of mortgage defaults
                  caused by the economic crisis. Also, this is an area of OCC
                  supervision that we had not previously reviewed.

                  We conducted our field work principally from November 2010
                  through March 2011. We interviewed OCC management for Large
                  Bank Supervision, as well as examiners in charge and mortgage
                  lead examiners at three large mortgage servicers. We reviewed
                  documentation related to the planning and execution of
                  examination procedures at these banks during the period 2008
                  through 2010. In addition, we reviewed the report and supporting
                  enforcement actions from the Interagency Review of Foreclosure
                  Policies and Practices that was issued jointly by the Board of
                  Governors of the Federal Reserve System (FRB), OCC, and the




                  OCC’s Supervision of National Bank’s Foreclosure Practices       Page 1
                  (OIG-12-054)
                      former Office of Thrift Supervision (OTS), in April 2011. 1,2
                      Appendix 1 contains a more detailed description of our objectives,
                      scope, and methodology.


Results in Brief
                      OCC examination procedures during the period 2008 through
                      2010 were not sufficient in scope or application to identify
                      significant weaknesses in national banks’ foreclosure
                      documentation and processing functions. During this time OCC
                      did not consider foreclosure documentation and processing to be
                      an area of significant risk and, as a result, did not focus
                      examination resources on this function. The nature and extent of
                      concerns found by OCC during its inter-agency horizontal review 3
                      of mortgage foreclosure processes at major mortgage servicers
                      indicate that OCC underestimated the level of risk in the function
                      during the period we reviewed. We noted a number of conditions
                      that, taken together, may have contributed to this
                      underestimation. These conditions are discussed in more detail in
                      the findings and recommendations section of this report. In
                      addition, we noted that the Mortgage Banking Comptroller’s
                      Handbook, which, among other things, provides the suggested
                      examination procedures covering foreclosures, had not been
                      updated in 13 years.

                      We are recommending that OCC (1) continue initiatives to
                      enhance examiner focus on operational risk in its examination
                      planning, (2) determine whether a more specific coding of
                      foreclosure related complaints would enhance OCC’s ability to
                      identify potential concerns with servicer performance, (3) update
                      the Mortgage Banking Comptroller’s Handbook, and (4) develop
                      policies requiring the periodic review and update of Comptroller’s
                      handbooks.

                      In a written response, which is included as appendix 2, OCC

1
  Effective July 21, 2011, in accordance with P.L. 111-203, the functions of OTS were transferred to
FRB, the Federal Deposit Insurance Corporation (FDIC), and OCC.
2
  OCC’s press release and links to the joint report and related enforcement actions are at
http://www.occ.gov/news-issuances/news-releases/2011/nr-occ-2011-47.html.
3
  The term horizontal review refers to a bank examination in which the regulator simultaneously
performs the same examination procedures across a group of institutions.

                      OCC’s Supervision of National Banks’ Foreclosure Practices                Page 2
                      (OIG-12-054)
                       agreed to the recommendations. OCC stated that it (1) had
                       undertaken a number of actions to enhance examiner focus on
                       operational risk; (2) had reviewed the coding of foreclosure-
                       related consumer complaints and determined that the current
                       coding was sufficient to identify consumer concerns; (3) planned
                       to update the Mortgage Banking Comptroller’s Handbook as part
                       of its broader project to integrate OCC and OTS policies and
                       examination handbooks; and (4) recently issued a policy
                       development manual that addresses the development and
                       updating of OCC handbooks. We consider the actions taken and
                       planned by OCC to be responsive to our recommendations.
                       However, OCC will need to identify and record planned
                       completion dates for taking certain corrective actions in the Joint
                       Audit Management Enterprise System (JAMES), the Department
                       of the Treasury’s audit recommendation tracking system.

Background
                       The OCC's primary mission is to charter, regulate, and supervise all
                       national banks and federal savings associations. It also supervises
                       the federal branches and agencies of foreign banks. OCC’s goal in
                       supervising banks and federal savings associations is to ensure that
                       they operate in a safe and sound manner and in compliance with
                       laws requiring fair treatment of their customers and fair access to
                       credit and financial products.

                       National banks service mortgages loans held in their own portfolios
                       and those owned by others. Since economies of scale are
                       important to maintaining profitability in mortgage servicing, a
                       majority of the mortgage loan servicing is performed at the largest
                       financial institutions. 4 These large financial institutions are
                       generally national banks supervised under OCC’s large bank
                       supervision process. Because of the vast operating scope of large
                       banks, OCC assigns examiners to work on-site at these
                       institutions. This enables OCC to maintain an ongoing program of
                       risk assessment, monitoring, and communication with bank
                       management and directors. The foundation of large bank
                       supervision is a risk assessment framework designed to determine
4
  OCC and OTS Mortgage Metrics Report First Quarter 2011 (Washington, DC, June 2011). Data
collected from eight national banks and one thrift with the largest mortgage servicing portfolios
represents 63 percent of all first-lien residential mortgages outstanding in the country.

                       OCC’s Supervision of National Banks’ Foreclosure Practices                   Page 3
                       (OIG-12-054)
                      if banks are effectively assessing risks throughout their entire
                      enterprise. These high level risk assessments drive the OCC
                      supervisory strategies for the institution. Supervisory strategies are
                      plans which detail OCC examination activities, e.g., targeted
                      reviews or ongoing monitoring, to be undertaken at the institution
                      during the examination year. These strategies are designed to
                      address the bank’s specific risk profile, including areas of potential
                      or actual risk, emerging risks, and regulatory mandated examination
                      areas.

                      Typically, the mortgage servicer manages a pool of loans for the
                      loans’ investor. These investors may include other financial
                      institutions, securitization trustees, 5 or government sponsored
                      enterprises (GSE). 6 The mortgage servicer processes transactions
                      such as borrower payments and escrow disbursements. The
                      servicer also remits the principal and interest collected to the
                      investor, net of a servicing fee. When borrowers are delinquent in
                      making their payments, servicers perform a range of default
                      management services intended to resolve the delinquency and
                      avoid foreclosure. However, if these actions are unsuccessful, the
                      servicer will initiate foreclosure proceedings on behalf of the
                      investor.

                      The relationship between the servicer and the investor is defined by
                      contract and the relationship with the borrower during the
                      foreclosure process is governed primarily by state law. Other than
                      a requirement that national banks maintain loan administration
                      procedures covering the foreclosure process, 7 there are no federal
                      laws or regulations covering foreclosure documentation and
                      processing.

                      During the economic crisis, the performance of mortgage loans
                      deteriorated significantly leading to increasing rates of foreclosure
                      during the period 2008 through 2010. In the fall of 2010, reports
                      of widespread irregularities and potential violations of law in the

5
  A securitization trustee is a third party retained to administer a trust that holds underlying assets
supporting an asset-backed security.
6
  GSEs are financial services corporations created by the U.S. Government to enhance the flow of credit
to certain sectors of the economy, including education, agriculture and home finance. Examples of GSEs
are the Federal National Mortgage Corporation (Fannie Mae), the Federal Home Loan Mortgage
Corporation (Freddie Mac), and the Government National Mortgage Association (Ginnie Mae).
7
  12 CFR 34.62, Real Estate Lending Standards

                      OCC’s Supervision of National Banks’ Foreclosure Practices                 Page 4
                      (OIG-12-054)
                      documentation and processing of foreclosures prompted Congress
                      to hold hearings 8 on the matter. At these hearings, the Acting
                      Comptroller of the Currency testified that OCC was aware of the
                      increases in foreclosure rates and that, in response, OCC
                      examination resources had been focused on ensuring that the loss
                      mitigation and modification processes designed to prevent
                      foreclosure were operating effectively. He further stated that
                      internal audit, quality control, and consumer complaints had not
                      indicated that foreclosure documentation and processing were
                      areas of concern.

                      In response to these reports, OCC directed large national banks to
                      review their foreclosure processes. Working with the former OTS,
                      FRB, and FDIC, OCC initiated a horizontal review of foreclosure
                      practices at 14 major mortgage servicers. At the 8 national banks
                      included in the horizontal review, OCC consistently found
                      deficiencies and weaknesses in the banks’ foreclosure processes.
                      These included weak management oversight, foreclosure document
                      deficiencies, poor oversight of third-party foreclosure service
                      providers, and inadequate risk control systems. As part of the
                      horizontal review, OCC also examined Mortgage Electronic
                      Registration Systems, Inc. (MERS) and found concerns with
                      corporate governance and control over information systems. 9 On
                      April 13, 2011, FRB, OCC, and the former OTS issued a joint
                      report on the results of the interagency horizontal review along
                      with formal enforcement actions entered into with the mortgage
                      servicers and third-party mortgage service providers subject to
                      review.

                      The regulatory environment surrounding mortgage servicing
                      continues to evolve. Developing national mortgage servicing
                      standards has been suggested and certain state attorneys general
                      are working toward a comprehensive settlement with some banks

8
  U.S. Senate Committee on Banking, Housing, and Urban Affairs: Problems in Mortgage Servicing from
Modification to Foreclosure, Part I, Nov. 16, 2010, and Part II, Dec. 10, 2010. U.S. House of
Representatives Committee on Financial Services: Robo-Signing, Chain of Title, Loss Mitigation and
Other Issues in Mortgage Servicing, Nov. 18, 2010.
9
  MERS is a private company created by the mortgage banking industry to streamline the mortgage
process. MERS acts as the nominal mortgagee in the county land records for the lender and servicer and
tracks transfers of the mortgage in its proprietary information system with the goal of eliminating the
need for assignment upon transfer of servicing. The practice of MERS acting in the capacity of
mortgagee has been widely accepted within the mortgage industry.

                      OCC’s Supervision of National Banks’ Foreclosure Practices                 Page 5
                      (OIG-12-054)
                      that, among other goals, would define standards of servicer
                      behavior. In addition, the Consumer Financial Protection Bureau
                      (CFPB), which commenced operations in July 2011, will play a
                      major, but not yet fully defined, role in supervising mortgage
                      lending and servicing at banks with greater than $10 billion in total
                      assets. 10

Findings and Recommendations

Finding 1             OCC Underestimated the Level of Risk in Foreclosure
                      Documentation and Processing

                      According to OCC’s Comptroller’s Handbook for Large Bank
                      Supervision, examiners should undertake a careful and thoughtful
                      assessment of a bank’s current and anticipated risks when
                      developing the supervisory strategy for a bank. OCC was aware of
                      increases in foreclosure rates and did identify increasing mortgage
                      delinquency and foreclosure rates as risk factors in the supervisory
                      strategies that we reviewed during our audit. However, this did not
                      prompt OCC to identify foreclosure documentation and processing
                      by national banks as an area of significant risk during the 2008,
                      2009, or 2010 examination cycles. As a result, OCC did not focus
                      examination procedures on this function nor did they ensure
                      whether the banks’ internal audit and quality assurance functions
                      provided sufficient coverage of the function. Instead, OCC
                      examination resources were focused on loss mitigation and
                      modification processes designed to prevent foreclosure. These
                      findings, along with the nature and extent of concerns found by
                      the interagency horizontal review, lead us to conclude that OCC
                      underestimated the risk related to foreclosure documentation and
                      processing.

                      We noted several factors which may have contributed to this
                      underestimation. Notwithstanding these factors, we believe OCC



10
  CFPB was created by the Dodd-Frank Wall Street Reform and Consumer Protection Act (Dodd-Frank)
as an independent bureau within FRB with a goal of empowering consumers with the information
needed to make appropriate financial decisions. Under Dodd-Frank, CFPB will have the authority to set
and enforce consumer protection rules related to mortgages, credit cards, and other consumer financial
products and services.

                      OCC’s Supervision of National Banks’ Foreclosure Practices                 Page 6
                      (OIG-12-054)
could have been better equipped to identify the key risks in a
bank’s foreclosure documentation and processing function.
   • Foreclosure is primarily governed by individual state law and
      the portfolios of large mortgage servicers generally contain
      loans from many states. Accordingly, the risks associated
      with foreclosure documentation and processing is
      significantly increased overall because of the inherent
      complexity introduced by each state’s own set of laws and
      regulations. Since the expertise of most OCC examiners lies
      primarily in issues of safety and soundness and compliance
      with federal laws and regulations rather than state laws and
      regulations, the degree of risk associated with foreclosure
      documentation and processing was not fully appreciated by
      the examiners.

    •   As will be discussed further in finding 2 below, The
        Comptroller’s Handbook for Mortgage Banking had not been
        updated since 1998. As a result, examiners could not use or
        rely on this source for adequate guidance on key risks
        related to foreclosure.

    •   OCC’s large bank supervision process did not require
        examiners to document their assessment of risk at a
        functional process level when developing supervisory
        strategies. As a result, we could not determine whether the
        consideration of the impact of risk factors identified in the
        supervisory strategies (e.g., increasing mortgage delinquency
        and foreclosure rates) on foreclosure documentation and
        processing was sufficient.

OCC management told us that they believed the underestimation of
risk in this area to be more an error in judgment than of
documentation. We were also told that while the core risk
assessment process for large banks was conducted by examiners
with a deep knowledge of the institutions they examine, OCC,
nevertheless, identified a need for enhanced examiner focus on
operational risk when preparing these assessments. To address the
need for enhanced focus on operational risk, we were told that
OCC is currently pursuing a number of initiatives including issuing
additional examiner guidance. OCC also recently added a position
for an operational risk subject matter expert to support examiners
in the field. That said, OCC officials opined that the current level of
OCC’s Supervision of National Banks’ Foreclosure Practices       Page 7
(OIG-12-054)
                      detail in documenting risk assessments is sufficient given the
                      immense size and operational diversity of large financial
                      institutions. To prepare a risk assessment at the individual
                      functional process level, in their view, would require an impractical
                      level of documentation and still be subject to errors in judgment.

                      In addition, we found other factors that may have contributed to
                      OCC’s failure to adjust its examination procedures with regard to
                      what turned out to be serious foreclosure issues. As mentioned
                      previously, the Acting Comptroller of the Currency testified before
                      the Senate Committee on Banking, Housing, and Urban Affairs that
                      neither banks’ internal quality control tests and internal audits nor
                      data from OCC’s consumer call center suggested that foreclosure
                      document processing was an area of concern. In this regard

                          •   OCC examiners told us that they relied on this absence of
                              foreclosure documentation and processing issues noted by
                              the banks’ internal audit and quality assurance functions. We
                              believe this reliance was misplaced. Bank internal audit
                              plans, internal audit reports, and quality assurance test
                              documentation included in OCC examination workpapers and
                              reviewed during our audit showed that these internal risk
                              monitoring functions did not focus on foreclosure
                              documentation and processing. Instead the banks’ internal
                              risk monitoring work was primarily concentrated on loss
                              mitigation/modification processes and compliance with
                              investor guidelines.

                          •   Consumer complaints received by OCC’s Customer
                              Assistance Group (CAG) 11 are coded at five levels driven by
                              product type and the relationship of the complaint to federal
                              regulation. Foreclosure concerns are generally tied to
                              violations of state laws and regulations, which are not
                              contemplated by CAG’s base coding structure. In 2008, in


11
  OCC's Customer Assistance Group (CAG) maintains a call center and website to help customers
resolve issues with national banks and their operating subsidiaries. This group answers questions and
provides informal guidance related to applicable banking laws and regulations, and general banking
practices. CAG also provides an avenue to offer informal consumer education on banking and the use of
credit



                      OCC’s Supervision of National Banks’ Foreclosure Practices               Page 8
                      (OIG-12-054)
                              response to rising delinquencies and foreclosures, CAG
                              added an early warning code to track mortgage-related
                              complaints where the complainant mentioned foreclosure as
                              an issue or a potential concern. However, the coding of
                              these issues and resulting summary reporting did not
                              categorize the specific nature of the concern with the
                              foreclosure, such as whether the concern related to
                              foreclosure documentation and processing. CAG reporting
                              using this early warning code showed that foreclosure
                              related complaints were 8.3 percent (5,976 complaints) and
                              11.2 percent (8,691 complaints) of the total complaints
                              received by OCC in 2009 and 2010, respectively.

Finding 2             The Mortgage Banking Comptroller’s Handbook Was
                      Outdated

                      As stated in the Government Accountability Office’s Standards for
                      Internal Control in the Federal Government, effective internal
                      control helps in managing change to cope with shifting
                      environments and evolving demands and priorities. 12 Accordingly, a
                      process should be in place to periodically assess the completeness
                      and relevance of examiner guidance.

                      OCC’s The Mortgage Banking Comptroller’s Handbook provides
                      examiners background narratives on the mortgage process as well
                      as suggested examination procedures. However, we found that it
                      had not been updated since the late 1990’s (narratives were last
                      updated in March 1996; procedures were last updated in March
                      1998). As a related observation, we noted that OCC does not have
                      a documented policy requiring the periodic review and update of
                      Comptroller’s Handbooks.

                      Mortgage banking has changed significantly since the last
                      handbook update with a greater emphasis on asset securitization
                      and the proliferation of new mortgage products such as option
                      ARMs and subprime mortgages, not to mention the more current
                      increases in delinquency and foreclosure rates. The general
                      mortgage banking principles and suggested examination procedures
                      presented in the handbook remain valid but because they have not

12
     GAO/AIMD-00-21.3.1, Nov. 1999

                      OCC’s Supervision of National Banks’ Foreclosure Practices    Page 9
                      (OIG-12-054)
             been updated to include more recent considerations, they are not
             complete. For example, the handbook does not address issues such
             as the impact of asset securitization on loan documentation and
             foreclosure, use of electronic mortgage registration vendors such
             as MERS, or the heavy reliance of third party attorneys to ensure
             compliance with state foreclosure laws and regulations.

             According to OCC officials, examiners use the Comptroller’s
             Handbooks as a starting point in developing examination
             procedures and experience and professional judgment are also
             drawn upon in developing a final examination program. OCC has
             also issued supplemental mortgage banking guidance to examiners
             in the past 13 years (e.g., Bulletin OCC 2007-26, Subprime
             Mortgage Lending: Statement on Subprime Lending). However, we
             believe that the lack of updates to this kind of basic examination
             guidance increases the risk of ineffective supervision. Accordingly,
             to facilitate more effective supervision, we believe that OCC needs
             a mechanism in place to ensure that basic internal control
             structures such as Comptroller’s Handbooks are updated regularly,
             and particularly when conditions change within the banking
             industry.

Recommendations

             We recommend that the Comptroller of the Currency do the
             following:

             1. Continue efforts to enhance examiner focus on operational risk
                when conducting risk assessments and preparing supervisory
                strategies. Also, when relying on internal bank documents such
                as internal audit plans and reports to assess risk, examiners
                should ensure that the scope of the internal review work covers
                the operational risks being assessed.

                  Management Response

                  Consistent with the recommendation, OCC has undertaken a
                  number of actions to enhance examiner focus on operational
                  risk, especially with respect to larger institutions. These actions
                  included issuing guidance in September 2011 directing
                  examiners to better leverage OCC’s Risk Assessment System as

             OCC’s Supervision of National Banks’ Foreclosure Practices       Page 10
             (OIG-12-054)
    a tool to identify, communicate, and accomplish appropriate
    responses to the buildup of risks or deficiencies in risk
    management systems. At year end 2011, risk assessments for
    institutions in OCC’s Large Bank program reflected operational
    risk as the top ranked risk.

    Within the Large Bank program, the Operations Risk Strategy
    Guidance for fiscal years 2012 and 2013 directed examiners to
    integrate their assessments of operational risk emanating from
    system, processes, talent, and external event-related issues
    across all function areas of the bank. Specifically related to
    mortgage banking, OCC’s Large Bank Mortgage Banking
    Strategy Guidance places top priority on the evaluation of
    actions undertaken to address the foreclosure consent orders at
    applicable institutions. Examiners will also evaluate the
    foreclosure processing self-assessments and necessary
    corrective actions required at other companies with mortgage
    servicing activity. The strategy guidance also calls for examiners
    to re-assess how institutions have strengthened their internal
    risk management functions and processes in the mortgage
    servicing area.

    OCC continues to discuss operational risk work, approaches,
    issues, and trends internally as well as externally with FRB,
    FDIC, and international regulatory colleagues. Additionally, all
    examiners were informed that operational risk is a primary
    concern requiring continued examiner attention particularly in
    operations with high transaction volume or high growth.

    OIG Comment

    OCC’s actions, taken and ongoing, are responsive to our
    recommendation. OCC will need to record a planned completion
    date for all corrective actions in JAMES as appropriate.

2. Determine whether a more specific coding of foreclosure related
   complaints would enhance OCC’s ability to identify potential
   concerns with servicer performance.




OCC’s Supervision of National Banks’ Foreclosure Practices      Page 11
(OIG-12-054)
    Management Response

    OCC reviewed the coding of foreclosure-related consumer
    complaints and determined that the current coding was
    sufficient to identify consumer concerns. OCC commented that
    most complaints are not so specific as to identify
    documentation, process, or breach of state law as the basis for
    complaint, but if a consumer did complain on that basis, the
    system has the ability to capture those issues in the record.
    OCC also commented that complaint data alone would be
    unlikely to identify something so specific and invisible to the
    customer as documentation or process issues and absent such
    granularity in the complaints, additional coding would not
    improve its understanding of servicer performance.

    OIG Comment

    We accept OCC’s determination that the current coding of
    foreclosure-related consumer complaints is sufficient to identify
    consumer concerns, and we consider this recommendation
    closed. That said, we believe OCC should periodically review
    the coding of complaints to ensure OCC’s ability to identify
    potential concerns.

3. Update the Mortgage Banking Comptroller’s Handbook to
   provide a more complete coverage of key processes and risks in
   the mortgage banking environment.

    Management Response

    OCC commented that it planned to complete this action as part
    of its broader project to integrate the OCC and OTS policies and
    examination handbooks. OCC’s goal for completing an updated,
    merged Mortgage Banking Handbook is early 2013. In its
    response, OCC also identified a number of related guidance and
    examination procedure issuances that it has made apart from an
    update to the Mortgage Banking Handbook.

    OIG Comment

    OCC’s proposed action is responsive to the recommendation.
    OCC will need to record its planned completion date in JAMES.

OCC’s Supervision of National Banks’ Foreclosure Practices     Page 12
(OIG-12-054)
4. Develop a policy for the periodic review and, as needed, update
   of the Comptroller’s Handbooks.
   Management Response

    OCC’s Chief National Bank Examiner’s (CNBE) office recently
    issued a policy development manual that addresses the
    development and updating of OCC handbooks. The manual
    directs CNBE staff as they develop new policies and regulations
    to determine whether examination handbooks and procedures
    need to be updated. CNBE managers will be instructed to
    identify and prioritize handbooks that may need substantial
    revisions and that will require substantial time and resources.

    OIG Comment

    OCC’s corrective action, if implemented as described, is
    responsive to the recommendation.

                               * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-0384 or James Lisle, Audit Manager, at
(202) 927-6345. Major contributors to this report are listed in
appendix 3.




Jeffrey Dye /s/
Director of Banking Audits




OCC’s Supervision of National Banks’ Foreclosure Practices     Page 13
(OIG-12-054)
Appendix 1
Objectives, Scope and Methodology




The objectives of this audit were to determine:

    •   The sufficiency of existing Office of the Comptroller of the
        Currency (OCC) procedures for supervising loan
        documentation and foreclosure practices at national banks,
        which own or service mortgage loans; and,

    •   The effectiveness of the application of these procedures.

To achieve the audit objectives, we evaluated the extent of
supervisory coverage of the foreclosure documentation and
processing function and selected a sample of three banks with
large servicing portfolios. These banks were Bank of America,
National Association; J.P. Morgan Chase, National Association; and
Wells Fargo, National Association. In connection with our audit, we
performed the following.

    •   Reviewed the OCC’s Mortgage Banking Comptroller’s
        Handbook, related bulletins, regulations and guidance.

    •   Interviewed OCC management responsible for the
        supervision of national banks with large mortgage servicing
        portfolios.

    •   Interviewed OCC examiners in charge and mortgage lead
        examiners at the banks in our sample.

    •   Interviewed the OCC Ombudsman and reviewed complaint
        reporting generated by OCC’s Customer Assistance Group.

    •   Reviewed OCC supervisory strategies covering the
        mortgage banking function at the banks in our sample for
        the period 2008 through 2010.

    •   Reviewed OCC supervisory letters to determine the scope
        of targeted reviews touching upon the default
        administration or foreclosure function during the audit
        period.

    •   Reviewed OCC examination documentation related to the


OCC’s Supervision of National Banks’ Foreclosure Practices       Page 14
(OIG-12-054)
Appendix 1
Objectives, Scope and Methodology




        banks’ internal risk monitoring functions’ (i.e., internal
        audit, quality assurance) coverage of foreclosure and, as
        necessary, OCC monitoring of these functions.

    •   Reviewed OCC supervisory letters documenting the results
        of procedures performed during the inter-agency horizontal
        review of mortgage foreclosure at major mortgage
        servicers.

We performed our audit field work from November 2010 through
March 2011 and certain follow-up procedures in November 2011.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




OCC’s Supervision of National Banks’ Foreclosure Practices      Page 15
(OIG-12-054)
Appendix 2
Management Response




OCC’s Supervision of National Banks’ Foreclosure Practices   Page 16
(OIG-12-054)
Appendix 2
Management Response




OCC’s Supervision of National Banks’ Foreclosure Practices   Page 17
(OIG-12-054)
Appendix 2
Management Response




OCC’s Supervision of National Banks’ Foreclosure Practices   Page 18
(OIG-12-054)
Appendix 2
Management Response




OCC’s Supervision of National Banks’ Foreclosure Practices   Page 19
(OIG-12-054)
Appendix 3
Major Contributors To This Report




James Lisle, Audit Manager
Angelo Arpaia, Auditor in Charge
Ebonique Poteat, Auditor in Charge
Olivia Scott, Auditor
Marco Uribe, Auditor
Michelle Littlejohn, Referencer




OCC’s Supervision of National Banks’ Foreclosure Practices   Page 20
(OIG-12-054)
Appendix 4
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
    Group

Office of the Comptroller of the Currency

    Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner




OCC’s Supervision of National Banks’ Foreclosure Practices     Page 21
(OIG-12-054)
